                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM


1)       70: AIGI      File Number: 193030012                                         Date: 11 March 2002


Il       Subject: Closeout Memo                                                                 Page 1 of 1


     1        There was no closeout written at the time this case was closed. The following information was
     I        extracted fiom the file in conformance with standard closeout documents.
     I        Our office was informed that the subject' was alleged to have falsified statements or claims as a
              granteelcontractor. The grant's unused funds of $15,719.68 were credited and $9,773 in duplicate
              salary payments were recovered.

              Accordingly this case is closed.




Il           -
                                                                          .'\
                         t        NATIONAL SCIENCE FOUNDA2 JN             -     17   3b 3   0 0 1 ~

                                    WASHINGTON, D.C. 20550




        Office of
    Inspector General




          DATE : Dee&&
          FRbN1
                             ..
                                   W / 1W W /
                                  mu.   I   I
                                                VV
                                                     /
                                                     - -
                               Wpecial Agent in-Charge
                                                         /A   A


                                                                  -
                                                                      -
                                                                          -
                                                                          -




                  ~nvestkgat(by$ Section
     SWJECTr      Alleaation-of Duplicative Salary Paymente at



                  Director, Division of Financial Management

    In March 1993 we received an allegation of misuse of fun& at the
    grant no'-
                   --    -              .
                              The misuse allegedly took place under NSF
                          . during the summer of 1992. This award was
I
I
    closed-inOctober 1992.
    Our investigation and a'review by the university found that during
    the summer of 1992, . the principal investigator (PI) on the grant
    received salary payments, totaling $9,773.20,          which were
    duplicative of salary payments received from another federally
    funded research project. While we found that the PI did work on
    both research projects during the summer, the University found that
    receiving salazy payments from both federally funded projects
    during the same period was inconsistant with University policy.
    The PI reimbursed the University for the improper salary payment^.
    We also found that a travel cost of $759.97 was charged to the
    grant after the grant had expired. According to the university,
    both expenditures for salary and travel were di~allowed and
    reversed after expiration of the grant. The University reported to
    us that after all credits were completed, the unused grant funds                                  '

    for this grant total $15,719.68.
    We are providing this information to you to ensure that these funds
    are properly credited to NSF. If you have any questions, please
    contact me a(


    cc:   OIG, Office of Audit
!
